;

Appendix

•f

!

Sibley vs. Frank Paul Geraci Jr., Mary C. Loewenguth and Catherine O'Hagan
Wolfe, No.: 20-CV-6310 EAW, June 3, 2020 Decision and Order
Appendix - 2
i

Sibley vs. Frank Paul Geraci Jr., Mary C. Loewenguth and Catherine O'Hagan
Wolfe, No.: 20-CV-6310 EAW, October 13, 2020, Decision and Order Denying
Reconsideration
Appendix - 12

■i

Sibley vs. Frank Paul Geraci Jr., Mary C. Loewenguth and Catherine O’Hagan
Wolfe,. No: 20-3608, United States Court of Appeals for the Second Circuit. June 2,
2021, Judgment
Appendix - 16

;

s

*r
1

Sibley vs. Frank Paul Geraci Jr., Mary C. Loewenguth and Catherine O'Hagan
Wolfe, No: 20-3608, United States Court of Appeals for the Second Circuit. July 6,
2021, Order denying reconsideration and re-hearing en banc
Appendix - 20

;■

v■

1
!;

■

i/
L

l]

.V

'

Appendix - 1

i.

r:;

The United States District Court
For The Western District Of New York
Montgomery Blair Sibley,
Plaintiff,

DECISION AND ORDER
Case No.: 20-CV-6310 EAW

vs.
Frank Paul Geraci Jr., Mary C.
Loewenguth, and Catherine O'Hagan
Wolfe,
Defendants.

INTRODUCTION
Pro se plaintiff Montgomery Blair Sibley (“Plaintiff’) filed this action against
defendants the Honorable Frank P. Geraci Jr., Chief District Judge, United States
District Court for the Western District of New York (“Judge Geraci”), Mary C.
Loewenguth, Clerk of Court, United States District Court for the Western District
of New York (“Clerk Loewenguth”), and Catherine O’Hagan Wolfe, Clerk of Court,
United States Court of Appeals for the Second Circuit (“Clerk Wolfe”) (collectively
“Defendants”), asserting claims in connection with his filings in Sibley v. Watches,
No. 6:19-CV-06517 (the “Watches Action”), a civil action over which Judge Geraci is
presiding. (Dkt. 1).
Currently before the Court is Plaintiffs motion seeking to disqualify all
sitting judges in this District from presiding over the instant matter. (Dkt. 2). For
the reasons that follow, the Court denies Plaintiffs motion and sua sponte
dismisses Plaintiffs Complaint.

BACKGROUND
The following facts are taken from Plaintiffs Complaint. (Dkt. 1). As is
required at this stage of the proceedings, the Court treats Plaintiffs factual claims
as true.
On or about July 9, 2019, Plaintiff filed a complaint and a motion for leave to
proceed in forma pauperis (the “IFP Motion”) in the Watches Action “with agents of
Appendix - 2

Defendant Loewenguth.” (Dkt. 1 at U 8). The case was assigned to Judge Geraci.
(Id.). That same day, Plaintiff “presented to agents of Defendant Loewenguth a
properly completed Summons for signature and seal” but “Defendant Loewenguth,
by and through her agents, refused to issue the necessary summons,” preventing
Plaintiff from serving the complaint. (Id. at 1 9 (emphasis omitted)).
On August 8, 2019, because Judge Geraci had not decided Plaintiff’s IFP
Motion for thirty days, Plaintiff “filed his Motion Procedendo Ad Justicium which
requested that Defendant Geraci procedendo ad justicium upon [Plaintiffs] [IFP
motion].” (Id. at 1 10). At the time the Complaint in this action was filed, the IFP
Motion and motion procedendo ad justicium remained pending. (See id.).
On September 9, 2019, Plaintiff sought “appellate relief from Defendant
Geraci’s refusal” to decide the IFP Motion. (Id. at 1 11). Plaintiff “filed with agents
of Defendant Wolfe”: (1) a “Petition for Writs of Procedendum Ad Justicium and
Mandamus seeking Orders directing” Judge Geraci to rule on the IFP Motion, and
(2) a motion to proceed in forma pauperis before the Second Circuit. (Id.).
After it became “apparent to [Plaintiff] that Defendant Geraci was not going
to rule upon his [IFP Motion], Plaintiff tendered the filing fee of $400.00.” (Id. at 1
12 (emphasis omitted)). “Only then did Defendant Loewenguth, by and through her
agents, issue the Summons. . . .” (Id.). On December 13, 2019, “representing that
she was acting ‘For The Court,’” Clerk Wolfe issued a “putative Order” striking
Plaintiffs motion to proceed in forma pauperis before the Second Circuit because it
did “not comply with the Court’s prescribed filing requirements.” (Id. at 1 13). On
January 18, 2020, Clerk Wolfe “issued the Mandate of the Court dismissing
[Plaintiffs] Petition for Writs of Procedendum Ad Justicium and Mandamus.” (Id. at
114).
Plaintiff commenced the instant action on May 13, 2020, and paid the filing
fee. (Dkt. 1). Summonses were issued on May 13, 2020. On May 20, 2020, Plaintiff
filed his motion for disqualification. (Dkt. 20).
DISCUSSION
I.

Plaintiffs Motion for Disqualification

Plaintiff seeks an order disqualifying all judges in this District from further
involvement in this matter pursuant to 28 U.S.C. §§ 144 and 455(a). These
statutory provisions govern the recusal of a judge assigned to a matter. See 28
U.S.C. §§ 144, 455(a). To the extent that Plaintiff seeks recusal of the undersigned,
Plaintiffs motion is denied for the reasons discussed below.
Appendix - 3

Pursuant to § 144:
Whenever a party to any proceeding in a district court makes and files
a timely and sufficient affidavit that the judge before whom the matter
is pending has a personal bias or prejudice either against him or in
favor of any adverse party, such judge shall proceed no further therein,
but another judge shall be assigned to hear such proceeding. The
affidavit shall state the facts and the reasons for the belief that bias or
prejudice exists. ... It shall be accompanied by a certificate of counsel
of record stating that it is made in good faith.
28 U.S.C. § 144. “Notwithstanding the wording of Section 144, the ‘mere filing of an
affidavit of prejudice does not require a judge to recuse (herself].”’ Thorpe v.
Zimmer, Inc., 590 F. Supp. 2d 492, 498 (S.D.N.Y. 2008) (quoting Nat’lAuto Brokers
Corp. v. Gen. Motors Corp., 572 F.2d 953, 958 (2d Cir. 1978)). “[T]he judge must
accept the facts asserted in the affidavit as true.” Id. However, a “judge may
disregard speculative and conclusory assertions.” Utsey v. Am. Bible Soc’y, No. 02
Civ. 3995(LAK), 2004 WL 551201, at *1 (S.D.N.Y. Mar. 22, 2004). “The Second
Circuit has articulated a standard for legal sufficiency under Section 144: an
affidavit must show the objectionable inclination or disposition of the judge; it must
give fair support to the charge of a bent of mind that may prevent or impede
impartiality or judgment.” Williams v. N.Y.C. Hous. Auth., 287 F. Supp. 2d 247, 249
(S.D.N.Y. 2003) (internal quotation marks and citations omitted).
“In addition to reviewing the affidavit for legal sufficiency, the Court must
strictly scrutinize the form of the affidavit.” Id. “Deficiencies in form alone can be
grounds for denying a party’s motion.” Id. (citations omitted). Section 144 requires
that an affidavit be accompanied by a certificate of counsel of record “stating that it
is made in good faith.” 28 U.S.C. § 144. “[T]he certificate provides a safeguard that
counsel of record can attest to the facts alleged by the affiant as being accurate.”
Williams, 298 F. Supp. 2d at 249. “[A] disqualification request that is not
accompanied by a certificate of counsel of record may fail solely for that reason.” Id.
(citations omitted).
Pursuant to § 455(a), a judge must disqualify herself “in any proceeding in
which [her] impartiality might reasonably be questioned.” 28 U.S.C. § 455(a). “This
provision governs circumstances that constitute an appearance of partiality, even
though actual partiality has not been shown.” Chase Manhattan Bank v. Affiliated
FMIns. Co., 343 F.3d 120, 127 (2d Cir. 2003) (citing Liljeberg v. Health Servs.
Acquisition Corp., 486 U.S. 847, 860 (1988)). “Section 455 is broader in its
application, and thus courts use the same analysis and standards for both sections
[455 and 144].” Hoffenberg v. Hoffman & Pollok, No. 00 Civ. 3151(RWS), 2002 WL
Appendix - 4

31444994, at *2 (S.D.N.Y. Oct. 31, 2002) (citations omitted). “The bias and/or
prejudice asserted under both provisions must stem from extrajudicial sources, i.e.,
outside the judicial proceeding at hand/’ Id. (citing Litkey v. United States, 510 U.S.
540, 540 (1994)). “Since the judge is presumed to be impartial, the movant has a
stringent burden of proof.” Id. (citations omitted).
As an initial matter, the Court notes that Plaintiff misunderstands § 144.
(See Dkt. 2 at 3 (“Congress has imposed a one-time obligatory disqualification
under 28 U.S.C. § 144. The instant verified Motion has met the requirements of §
144 and thus the Court has no discretion but must grant this Motion to Disqualify.”
(emphasis omitted)). As discussed above, the mere filing of the affidavit does not
require recusal of the undersigned. See Thorpe, 590 F. Supp. 2d at 498; see also
Williams, 287 F. Supp. 2d at 248 (‘Though the language of Section 144 appears to
indicate otherwise, submitting an affidavit to the Court under this provision does
not yield automatic recusal of the judge on the matter.”). The Court must determine
whether the affidavit is both procedurally and legally sufficient, Williams, 287 F.
Supp. 2d at 249, and the decision to grant or deny recusal is a matter left to the
discretion of the Court, Apple v. Jewish Hosp. & Med. Ctr., 829 F.2d 326, 333 (2d
Cir. 1987).
Further, Plaintiffs motion for recusal pursuant to § 144 is procedurally
deficient and subject to denial on that basis. Plaintiff is proceeding pro se and his
motion is not accompanied by a certificate of counsel of record confirming that the
motion is made in good faith. See Sea Gate Assn v. Krichevsky, No.
18-CV-3408(KAM)(SMG), 2019 WL 8587287, at *4 (E.D.N.Y. June 21, 2019) (“As
defendant is proceeding pro se .. . he realistically could not have submitted the
certification of counsel required by the statute. . . . Although defendant’s
noncompliance with this statutory requirement can be explained in light of his pro
se status, it may nonetheless render his affidavit deficient under § 144.”); Longi v.
Cty. of Suffolk, No. CV 02-5821(SJF)(WDW), 2006 WL 3403269, at *1 (E.D.N.Y.
Nov. 22, 2006) (“[Section 144] requires a good faith certification from counsel
and as such, may not be available to pro se litigants.”); Williams, 287 F. Supp. 2d at
249 (“A pro se party cannot supply a certificate of counsel. . . [The plaintiffs]
affidavit which is submitted pro se and without a certificate of counsel of record,
fails on this threshold matter”).
Nonetheless, because the impartiality of the Court has been brought into
question pursuant to § 455(a), the Court turns to the merits of Plaintiffs
allegations. Plaintiff alleges that the undersigned has a personal bias or prejudice
in favor of Judge Geraci and Clerk Loewenguth for the following reasons:
[Judge Geraci] is the Chief United States District Judge for the
Western District of New York. As such, [Judge] Geraci... is the
Appendix - 5

!

functional management superior of each and every member of the
bench of the District Court for the Western District of New York. Upon
information and belief, and after a reasonable opportunity for
discovery which I hereby request, I will establish that [Judge] Geraci
has close personal relationships with each member of the bench of the
District Court for the Western District of New York;
As Chief Judge, [Judge] Geraci has significant discretion in deploying
his financial, procurement, and personnel management authorities
that the Administrative Office has delegated to district courts. Such
discretion impacts the quality of life of the other judges of this Court.
This discretion presumably includes the ability to approve attendance
so-called “judicial junkets”; [and]
[Clerk Loewenguth] is the functional subordinate of each and every
member of the bench of the District Court for the Western District of
New York and, upon information and belief, and after a reasonable
opportunity for discovery which I hereby request, has close personal
relationships with each member of the bench of the District Court for
the Western District of New York.

(Dkt. 2 at 3).1
“[R]ecusal cases are very fact-specific” and “[j]udges need not always recuse
when a fellow judge is somehow involved in case.” King v. Deputy Atty. Gen. Del.,
616 F. App'x 491, 495 (3d Cir. 2015) (citations omitted). See Whitnum v. Town of
Woodbridge, No. 3:17-CV-1362 (JCH), 2019 WL 3024865, at *3 (D. Conn. July 11,
2019) (“[That the plaintiff] complains of rulings, actions, or inactions of one or more
of the undersigned’s colleagues, cannot be a basis for recusal. No reasonable person
would conclude, in this case, that because a colleague of the undersigned has been
criticized by a litigant, that the undersigned could not fairly preside over her
case.”); Meyer v. Foti, 720 F. Supp. 1234, 1238 n.5 (E.D. La. 1989) (“The court

1
Plaintiffs request for discovery is denied as “a party may not seek
discovery from any source prior to the Rule 26(f) conference, absent the parties’
agreement or a Court order setting a discovery schedule.” W.D.N.Y. L. R. Civ. P.
26(b). Here, Plaintiff has cited no authority for the proposition that he is entitled to
discovery into the personal lives of the judges and staff of this District and the
Court does not find it appropriate to allow such discovery. Moreover, as discussed
further below, the undersigned’s relationships with Judge Geraci and Clerk
Loewenguth are irrelevant, because the Court has no authority to review their
actions of which Plaintiff complains.
Appendix - 6

disagrees with plaintiffs argument that a reasonable man would question this
court’s impartiality merely because it would be required to pass on upon the
conduct of fellow district judges.”). Instead, the Court must make a fact specific
inquiry as to whether “a reasonable person with knowledge of the facts and
circumstances might question a judge’s impartiality.” McGraw v. Moody, No.
4:10CV01846-WRW, 2010 WL 5089761, at *1 (E.D. Ark. Dec. 7, 2010) (finding
recusal not warranted where plaintiff sued fellow district judge for having allegedly
improperly dismissed a prior lawsuit).
In this case, Plaintiffs allegations in support of recusal are centered on the
undersigned’s personal and professional relationships with Judge Geraci and Clerk
Loewenguth. Plaintiff misapprehends the nature of these relationships, particularly
with respect to the professional relationship between Judge Geraci and
undersigned. For example, Plaintiff alleges that because Judge Geraci “has
significant discretion in deploying his financial, procurement, and personnel
management authorities,” he “impacts the quality of life of’ the undersigned. (Dkt.
2 at 3). As an Article III judge, the undersigned holds office “during good behavior”
and, once appointed, her compensation “shall not be diminished.” U.S. Const, art.
Ill, § 1. Put simply, Judge Geraci’s administrative role as Chief Judge of this
District does not give him the authority over his fellow district judges that Plaintiff
imagines.
More importantly, the specific facts of this case render the relationships
between the undersigned and Defendants irrelevant, because a reasonable person
would understand that Plaintiff complains of actions that are unreviewable in this
forum and seeks relief that no court or judge has the authority to grant. As
discussed further below, Plaintiffs claims against each Defendant in this matter
are barred by absolute judicial immunity, and cannot be maintained in this or any
court. Moreover, Plaintiff asks the Court to remove Judge Geraci from his office, a
power constitutionally reserved to Congress. See Smith v. Scalia, 44 F. Supp. 3d 28,
43 (D.D.C. 2014) (rejecting argument that “the ‘Good Behavior’ clause of Article III
gives private individuals the right to bring suit to remove federal judges from the
bench,” explaining that “no less an authority than the Supreme Court has held that
the ‘Good Behaviour’ Clause guarantees that Art. Ill judges shall enjoy life tenure,
subject only to removal by impeachment.” (quotation and alteration omitted)), aff’d,
No. 14-5180, 2015 WL 13710107 (D.C. Cir. Jan. 14, 2015).
Resolution of the instant action is thus a straightforward matter of law and
does not require inquiry by the Court into the propriety of any actions taken bys
Defendants. Under these circumstances, no reasonable observer could conclude that
partiality towards Judge Geraci or Clerk Loewenguth would influence the
undersigned’s assessment of the matter. See McMurray v. Smith, No. CIV 08-0805
JB/KBM, 2008 WL 8836074, at *1 n.l (D.N.M. Sept. 29, 2008) (“[T]he Court notes
Appendix - 7

that it need not recuse itself, even though the Defendants in this case are fellow
judges from the District. . . . The Compendium'of Selected Ethics Opinions states
that a judge need not recuse from a case involving a party that filed suit against the
judge, where the judicial immunity will be a complete defense to the action against
the judge.” (citation and quotation omitted)); see also Jones u. City of Buffalo, 867 F.
Supp. 1155,1163 (W.D.N.Y. 1994) (finding that district judges are not required to
“automatically recuse themselves simply because they or their fellow judges on
the court are named defendants in a truly meritless lawsuit” (citation omitted)). For
all these reasons, the Court denies Plaintiffs motion for disqualification.
II.

Plaintiffs Complaint
A.

Legal Standard

The Second Circuit has held that a court has the inherent authority to
dismiss frivolous claims sua sponte “even if the plaintiff has paid the filing fee.”
Fitzgerald v. First E. Seventh St. Tenants Corp., 221 F.3d 362, 363 (2d Cir. 2000);
see also Preacely v. City of New York, 622 F. App’x 14, 15 (2d Cir. 2015) (“A district
court has the inherent authority to dismiss a frivolous complaint sua sponte even
when the plaintiff has paid the required filing fee.”). The Second Circuit has upheld
the sua sponte dismissal of complaints as frivolous where the claims are barred by
absolute judicial immunity. See Heath v. Justices of Supreme Court, 550 F. App’x
64, 64 (2d Cir. 2014) (affirming sua sponte dismissal of complaint where “[bjecause
all the actions taken by the judicial defendants and complained of. . . Were actions
taken in their judicial capacity and in connection with [plaintiffs] federal and state
court proceedings, [plaintiffs] claims [were] foreclosed by absolute immunity”).
B.

Claims against Judge Geraci

Judges are absolutely immune from suit for any actions taken within the
scope of their judicial responsibilities. See, e.g., Mireles v. Waco, 502 U.S. 9, 12
(1991). “Such judicial immunity is conferred in order to insure ‘that a judicial
officer, in exercising the authority vested in him, shall be free to act upon his own
convictions, without apprehension of personal consequences to himself.’” Bliven v.
Hunt, 579 F.3d 204, 209 (2d Cir. 2009) (quoting Bradley v. Fisher, 80 U.S. 335, 347
(1871)). “Thus, even allegations of bad faith or malice cannot overcome judicial
immunity.” Id. Indeed, a “judge will not be deprived of immunity because the action
he took was in error, was done maliciously, or was in excess of his authority; rather,
he will be subject to liability only when he has acted in the clear absence of all
jurisdiction.” Stump v. Sparkman, 435 U.S. 349, 356-57 (1978) (quotation
omitted).
The Supreme Court has developed a two-part test for determining whether a
Appendix - 8

judge is entitled to absolute immunity. See Stump v. Sparkman, 435 U.S. 349,
356-57 (1978). First, “[a] judge will not be deprived of immunity because the action
he took was in error, was done maliciously, or was in excess of his authority; rather,
he will be subject to liability only when he has acted in the ‘clear absence of all
jurisdiction.”’ Id. at 356-57 (quoting Bradley, 80 U.S. (13 Wall.) at 351); see also
Maestri v. Jutkofsky, 860 F.2d 50 (2d Cir. 1988) (finding no immunity where town
justice issued arrest warrant for conduct which took place within neither his town
nor an adjacent town, thereby acting in the absence of all jurisdiction).
Here, Plaintiff alleges that Judge Geraci’s refusal to decide Plaintiffs IFP
motion for 79 days denied Plaintiff “his absolute right to access court for redress of
his grievances and to seek protection of his fundamental, constitutional and
statutory rights, including, without limitation, the right to petition the
government.” (Dkt. 1 at f 24). Plaintiff makes no allegation that Judge Geraci acted
in the clear absence of all jurisdiction, nor would any such allegation be plausible
given the substance of Plaintiffs claims.
Second, a judge is immune for actions performed in his judicial capacity. C.f.,
e.g., Gregory v. Thompson, 500 F.2d 59, 62 (9th Cir. 1974) (finding no immunity
where judge assaulted litigant). Plaintiff complains of precisely that: actions that
Judge Geraci performed in his judicial capacity. Therefore, absolute judicial
immunity bars Plaintiffs claims against Judge Geraci and, thus, Plaintiffs claims
against Judge Geraci must be dismissed with prejudice.
C.

Claims against Clerks Loewenguth and Wolfe

Absolute judicial immunity extends to persons other than a judge “who
perform functions closely associated with the judicial process.” Cleavinger v. Saxner,
474 U.S. 193, 200 (1985). Court clerks are entitled to immunity “for [the]
performance of tasks which are judicial in nature and an integral part of the
judicial process.” Rodriguez u. Weprin, 116 F.3d 62, 66 (2d Cir. 1997). “Thus, a
clerk’s acts that implement judicial decisions or that are performed at the direction
or under the supervision of a judicial officer come under the ambit of judicial
immunity.” McKnight v. Middleton, 699 F. Supp. 2d 507, 252 (E.D.N.Y. 2010)
(citing Bliven, 418 F. Supp. 2d at 138); see also Olivia v. Heller, 839 F.2d 37, 39 (2d
Cir. 1988) (court clerks are afforded absolute immunity where their acts are of a
judicial nature). Court clerks also enjoy absolute immunity for administrative
functions taken “pursuant to the established practice of the court.” Humphrey v.
Court Clerk for the Second Circuit, No. 508-CV-0363 (DNH)(DEP), 2008 WL
1945308, at *2 (N.D.N.Y. May 1, 2008) (citation omitted).
Here, the complained of actions by Clerks Loewenguth and Wolfe were taken
in the course of the performance of their official duties as clerks of their respective
Appendix - 9

courts. For example, Plaintiff alleges that Clerk Loewenguth refused to issue
Plaintiff a summons (Dkt. 1 at K 32), and that Clerk Wolfe rejected certain of his
filings before the Second Circuit (id. at'lt 35, 38). “Because these actions were all
integral to the judicial process, it is clear that [Clerks Loewenguth and Wolfe]
ha[ve] absolute immunity, and that Plaintiffs claims must be dismissed.” Lipin v.
Hunt, No. 14-cv-1081 (RJS), 2014 WL 12792367, at *2 (S.D.N.Y. Sept. 18, 2014),
reconsideration denied, 2014 WL 12792361 (S.D.N.Y. Nov. 19, 2014); see also
Hudson v. Forman, No. 19-CV-1830 (CS), 2019 WL 1517581, at *3 (S.D.N.Y. Apr. 8,
2019) (finding defendant court clerk entitled to judicial immunity for refusing to
issue the plaintiff a summons and to certify the plaintiffs record on appeal);
Humphrey, 2008 WL 1945308, at *2 (“In this case, plaintiffs allegations arise
out of and relate to actions taken by court personnel which were in accordance with
the established practice of the Second Circuit, and pursuant to the direction of a
judicial officer as articulated in the relevant appellate mandates; accordingly, these
actions constitute an integral part of the judicial process and are shielded from
liability by judicial immunity.”). Accordingly, Plaintiffs claims against Clerks
Loewenguth and Wolfe must be dismissed with prejudice.
III.

Leave to Amend

The Second Circuit has advised that a pro se complaint should not be
dismissed without an opportunity to amend unless such amendment would be
futile. Cuoco v. Moritsugu, 222 F.3d 99, 122 (2d Cir. 2000). The Court has
considered whether to grant Plaintiff leave to amend, but finds that because the
defects in Plaintiffs Complaint are substantive, “better pleading will not cure
[them].” Id. Accordingly, Plaintiffs Complaint is dismissed with prejudice.
CONCLUSION
For the reasons set forth above, the Court denies Plaintiffs motion for
disqualification (Dkt. 2) and sua sponte dismisses Plaintiffs Complaint (Dkt. 1)
with prejudice as frivolous. The Clerk of Court is directed to close the case.
Although Plaintiff has paid the filing fee to commence the instant action,
should he seek leave to appeal in forma pauperis, the Court hereby certifies,
pursuant to 28 U.S.C. § 1915(a), that any appeal from this Order would not be
taken in good faith and leave to appeal to the Court of Appeals as a poor person is
denied. Coppedge v. United States, 369 U.S. 438, 444-45 (1962). Any request to
proceed on appeal in forma pauperis should be directed on motion to the United
States Court of Appeals for the Second Circuit in accordance with Rule 24 of the
Federal Rules of Appellate Procedure.

Appendix - 10

<.

SO ORDERED
/a/ Elizabeth A. Wolford
United States District Court Judge
Dated:

June 3, 2020
Rochester, N.Y.

:

Appendix - 11

The United States District Court
For The Western District Of New York
Montgomery Blair Sibley,
Plaintiff,

DECISION AND ORDER

vs.

Case No.: 20-CV-6310 EAW

Frank Paul Geraci Jr., Mary C.
Loewenguth, and Catherine O'Hagan
Wolfe,
Defendants.

INTRODUCTION
Pro se plaintiff Montgomery Blair Sibley ("Plaintiff') filed this action against
defendants the Honorable Frank P. Geraci Jr., Chief District Judge, United States
District Court for the Western District of New York ("Judge Geraci"), Mary C.
Loewenguth, Clerk of Court, United States District Court for the Western District
of New York ("Clerk Loewenguth"), and Catherine O'Hagan Wolfe, Clerk of Court,
United States Court of Appeals for the Second Circuit ("Clerk Wolfe") (collectively
"Defendants"), asserting claims in connection with his filings in Sibley v. Watches,
No. 6:19-CV-06517 (the "Watches Action"), a civil action over which Judge Geraci is
presiding. (Dkt. 1). Plaintiff further filed a motion to disqualify the undersigned and
all other sitting district judges in the Western District of New York from presiding
over the instant matter. (Dkt. 2).
On June 3, 2020, the Court issued a Decision and Order denying Plaintiffs
disqualification motion and sua sponte dismissing Plaintiffs claims as frivolous.
(Dkt. 3) (the "June 3rd D&O"). Judgment in favor of Defendants was entered that
same day. (Dkt. 4).
On June 16, 2020, Plaintiff filed a motion for reconsideration of the June 3rd
D&O. (Dkt. 5). Plaintiff thereafter filed two motions for procedendo ad justicium, on
August 31, 2020, and October 9, 2020. (Dkt. 6; Dkt. 7). For the reasons that follow,
the Court denies Plaintiffs motion for reconsideration and denies his motions for
procedendo ad justicium as moot.
FACTUAL BACKGROUND

Appendix - 12

i .

Plaintiffs factual allegations are set forth in detail in the June 3rd D&O,
familiarity with which is assumed for purposes of the instant Decision and Order.
To briefly summarize, Plaintiff asserts claims based on: (1) Clerk Loewenguth's
agents' failure to issue summonses in the Watches Action prior to Judge Geraci
issuing a decision on Plaintiffs motion for leave to proceed in forma pauperis (the
"IFP Motion") filed therein; (2) Judge Geraci's failure to decide the IFP motion for
79 days; and (3) Clerk Wolfe's issuance of an Order striking from the Second Circuit
Court of Appeals' docket a defective motion for leave to proceed in forma pauperis
filed with that court. (Dkt. 3 at 2-3).
DISCUSSION
I.

Plaintiffs Motion for Reconsideration

Plaintiff seeks reconsideration of the June 3rd D&O on numerous grounds.
Specifically, he argues that: (1) nemo judex parte sua, "a right reserved to [Plaintiff]
under the Ninth and Tenth Amendments] and repeatedly recognized under due
process considerations for an impartial tribunal," mandated a grant of his motion
for disqualification; (2) the undersigned made herself a witness in this matter by
stating in the June 3rd D&O that "Judge Geraci's administrative role as Chief
Judge of this District does not give him the authority over his fellow district judges
that Plaintiff imagines"; (3) the requirement set forth in 28 U.S.C. § 144 for a
certificate of counsel of record violates equal protection guarantees; (4) failure to
act, as opposed to the taking of an affirmative action, does not fall within the scope
of absolute judicial immunity; (5) public policy considerations prohibit the
application of absolute judicial immunity in this case; (6) absolute judicial
immunity does not bar Plaintiffs claims against Clerks Loewenguth and Wolfe; (7)
Judge Geraci's action in failing to decide Plaintiffs IFP motion in what Plaintiff
considered an appropriately timely fashion was "without the scope of his judicial
responsibilities" and thus not shielded by absolute judicial immunity; (8) this
Court's conclusion that the power to remove a district judge from office is reserved
to Congress is erroneous and Plaintiffs arguments to the contrary are not frivolous;
(9) the Court failed to address Plaintiffs claim for a declaratory judgment, which is
not barred by absolute judicial immunity; (10) Plaintiffs claims were not frivolous;
and (11) Plaintiff is entitled to oral argument and for the Court to "declare its ratio
decidendi." (Dkt. 5 at 2-21).
As explained by the Second Circuit, "[t]he standard for granting a [motion for
reconsideration] is strict, and reconsideration will generally be denied unless the
moving party can point to controlling decisions or data that the court overlooked matters, in other words, that might reasonably be expected to alter the conclusion
reached by the court." Shrader v. CSX TranspInc., 70 F.3d 255, 257 (2d Cir. 1995).
"The major grounds justifying reconsideration are an intervening change of
Appendix - 13

controlling law, the availability of new evidence, or the need to correct a clear error
or prevent a manifest injustice." Virgin Atl. Airways v. Nat'l Mediation Bd., 956
F.2d 1245, 1255 (2d Cir. 1992) (citations omitted). "With respect to the third of
these criteria, to justify review of a decision, the Court must have 'a clear conviction
of error on a point of law that is certain to recur.'" Turner v. Vill. of Lakewood, No.
11-CV-211-A, 2013 WL 5437370, at *3-4 (W.D.N.Y. Sept. 27, 2013) (quoting United
States v. Adegbite, 877 F.2d 174, 178 (2d Cir. 1989)). '"These criteria are strictly
construed against the moving party so as to avoid repetitive arguments on issues
that have been considered fully by the court.'" Boyde v. Osborne, No. 10-CV-6651,
2013 WL 6662862, at *1 (W.D.N.Y. Dec. 16, 2013) (quoting Griffin Indus., Inc. u.
Petrojam, Ltd., 72 F. Supp. 2d 365, 368 (S.D.N.Y. 1999)).
Here, the vast majority of the arguments raised by Plaintiff fail on their face
to satisfy the standard for reconsideration. The Court explained its reasons for
denying Plaintiffs disqualification motion and for finding his claims frivolous in
detail in the June 3rd D&O, and Plaintiff s disagreement therewith is not an
appropriate basis for the Court to revisit its prior determinations. However, two of
the arguments raised by Plaintiff merit further discussion.
First, as to Plaintiffs contention that absolute judicial immunity does not bar
his claim for declaratory relief, it is true that "[w]hile absolute and qualified
immunity foreclose all claims for damages, they do not necessarily preclude
declaratory relief." Franza v. Stanford, No. 18-CV-10892 (KMK), 2019 WL 6729258,
at *9 (S.D.N.Y. Dec. 11, 2019), reconsideration denied, 2020 WL 85228 (S.D.N.Y.
Jan. 3, 2020). However, "where public official defendants are shielded by absolute Or
qualified immunity, purely retrospective declaratory relief is inappropriate." Id.;
see also Leathersich v. Cohen, No. 18-CV-6363, 2018 WL 3537073, at *4 (W.D.N.Y.
July 23, 2018) ("Absolute judicial immunity bars declaratory judgment claims that
are retrospective in nature in that they seek a declaration that a judge's past
behavior has violated the Constitution." (quotation omitted)), appeal dismissed, No.
18-2600, 2019 WL 994360 (2d Cir. Jan. 30, 2019). Here, Plaintiff seeks a
declaratory judgment that Defendants' actions regarding his previously filed in
forma pauperis motions violated his constitutional rights—notably, Plaintiff does
not allege that he has any pending in forma pauperis motions. Accordingly,
Plaintiffs request for declaratory relief falls within the scope of Defendants'
absolute judicial immunity.
Second, as to Plaintiffs contention that he is entitled to oral argument, "busy
district courts are by no means required to hold oral argument on every motion that
is filed[.]" Borden, Inc. u. Meiji Milk Prod. Co., 919 F.2d 822, 828 (2d Cir. 1990); see
also Lewis, Lewis & Van Etten Inc. v. MCI Telecommunications Corp., 138 F.R.D.
25, 26 (E.D.N.Y. 1991) ("[Cjourts have repeatedly held that there is no
Appendix - 14

constitutional right to present oral argument on motion.” (collecting cases)). There
is nothing about the instant matter that brings it outside the normal course or
otherwise obligates the Court to hear oral argument on Plaintiffs request for
reconsideration. The Court set forth in detail the reasoning behind its decision in
the June 3rd D&O; to the extent necessary, it has expanded on that reasoning here.
While Plaintiff may disagree with the Court's analysis, his remedy lies in the
appellate process.
CONCLUSION
For the reasons set forth above and in the June 3rd D&O (Dkt. 3), the Court
denies Plaintiffs motion for reconsideration (Dkt. 5). Further, because the Court
has now resolved the motion for reconsideration, it denies Plaintiffs motions for
procedendo ad justicium (Dkt. 6; Dkt. 7) as moot.
SO ORDERED
Isl Elizabeth A. Wolford
United States District Court Judge
Dated:

October 13, 2020
Rochester, N.Y.

Appendix - 15

i

United States Court of Appeals
for the Second Circuit
SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT.
CITATION TO A SUMMARY ORDER FILED ON OR AFTER JANUARY 1, 2007,
IS PERMITTED AND IS GOVERNED BY FEDERAL RULE OF APPELLATE
PROCEDURE 32.1 AND THIS COURT'S LOCAL RULE 32.1.1. WHEN CITING A
SUMMARY ORDER IN A DOCUMENT FILED WITH THIS COURT, A PARTY
MUST CITE EITHER THE FEDERAL APPENDIX OR AN ELECTRONIC
DATABASE (WITH THE NOTATION "SUMMARY ORDER"). A PARTY CITING
TO A SUMMARY ORDER MUST SERVE A COPY OF IT ON ANY PARTY NOT
REPRESENTED BY COUNSEL.
At a stated term for the United States Court of Appeals, Second Circuit, held at the
Thurgood Marshall Courthouse, 40 Foley Square, City of New York, on the 2nd Day
of June, two thousand twenty one.
PRESENT:
Robert D. Sack
Gerald E. Lynch
Michael H. Park
Circuit Judges
Montgomery Blair Sibley,
Plaintiff/Appellant,
20-3608

vs.
Frank Paul Geraci Jr., Mary C.
Loewenguth, and Catherine O'Hagan
Wolfe,
Defendants.

For Plaintiff-Appellant

Montgomery Blair Sibley
pro-se, Corning, New York

Appendix - 16

!

For Defendant-Appellees

Karen Foster Lesperance
Assistant United States
Attorney for Antoinette T.
Bacon, Acting United States
Attorney for the Northern
District of New York
Albany, New York

Appeal from a judgment of the United States District Court for the Western District
of New York (Wolford, J,).
UPON DUE CONSIDERATION, IT IS HEREBY ORDERED, ADJUDGED, AND
DECREED that the judgment of the district court is AFFIRMED.
Montgomery Blair Sibley, pro se, sued the Western District of New York's
Chief Judge, Frank P. Geraci, and Clerk of Court, Mary C. Loewenguth, and this
Court's Clerk of Court, Catherine O'Hagan Wolfe, asserting that these Defendants
violated his constitutional rights in a separate pro se action, Sibley v. Watches,
W.D.N.Y. No. 19-cv-6517, over which Chief Judge Geraci is presiding. After filing
his complaint, Sibley moved to disqualify all district judges of the Western
District—including Judge Wolford, who presided over the case and entered
judgment below—from further involvement in this matter pursuant to 28 U.S.C. §§
144 and 455. The district court sua sponte dismissed Sibley's complaint as frivolous,
denied leave to amend as futile, and denied Sibley's motion for reconsideration. The
district court also denied the motion for disqualification as to Judge Wolford. We
assume the parties' familiarity with the underlying facts, the procedural history of
the case, and the issues on appeal.
I. Motion for Recusal or Disqualification
"We review a district court's decision to deny a recusal motion for abuse of
discretion." United States v. Carlton, 534 F.3d 97, 100 (2d Cir. 2008). The only issue
preserved on appeal is the district court's denial of Sibley's motion to disqualify
Judge Wolford. See Chevron Corp. v. Donziger, 990 F.3d 191, 203 (2d Cir. 2021)
("Arguments not raised on appeal are deemed abandoned and need not be reviewed
by this Court.").
Sibley sought Judge Wolford's recusal from this action under 28 U.S.C. §§
144 and 455. Under Section 144, a district judge must recuse herself from a matter
whenever a party "files a timely and sufficient affidavit that the judge before whom
the matter is pending has a personal bias or prejudice either against him or in favor
of any adverse party." 28 U.S.C. § 144. "To be sufficient^] an affidavit must show
Appendix - 17

the objectionable inclination or disposition of the judge . . . [and] give fair support to
the charge of a bent of mind that may prevent or impede impartiality of judgment."
Rosen v. Sugarman, 357 F.2d 794, 798 (2d Cir. 1966) (internal quotation marks
omitted). Under Section 455, a judge should recuse herself "in any proceeding in
which [her] impartiality might reasonably be questioned" and where a person
"within the third degree of relationship" to her is a party1. 28 U.S.C. § 455(a),
(b)(5)(i); see also Apple v. Jewish Hosp. & Med. Ctr., 829 F.2d 326, 333 (2d Cir.
1987) (noting that the impartiality analysis is the same under Sections 144 and
455).
The district court did not abuse its discretion by denying Sibley's motion for
recusal on these grounds. In his motion, Sibley declared under penalty of perjury
that "[u]pon information and belief' and given the opportunity for discovery, he
would establish that Chief Judge Geraci and Clerk Loewenguth had a close
personal relationship with Judge Wolford and that the chief judge had discretion
over financial and employment matters that impacted Judge Wolford's "quality of
life." D. Ct. Dkt. 2 at 3. Apart from these speculative assertions, Sibley did not
allege, let alone demonstrate, that Judge Wolford was biased against him nor did he
allege any facts suggesting that her impartiality could be questioned. We find that
Sibley's speculations were not "sufficient" to require recusal under Section 144 or to
demonstrate lack of impartiality under Section 455(a). See Rosen, 357 F.2d at 798.
II. Complaint
District courts have inherent authority to dismiss a frivolous complaint sua
sponte. Fitzgerald v. First E. Seventh St. Tenants Corp., 221 F.3d 362, 364 (2d Cir.
2000). A claim is frivolous if it presents an "indisputably meritless legal theory" or
"factual contentions [that] are clearly baseless." Neitzke v. Williams, 490 U.S. 319,
327 (1989). We review the dismissal de novo. Milan v. Wertheimer, 808 F.3d 961,
963 (2d Cir. 2015).
The complaint must plead "enough facts to state a claim to relief that is
plausible on its face." Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007). "A claim
has facial plausibility when the plaintiff pleads factual content that allows the court
to draw the reasonable inference that the defendant is liable for the misconduct
alleged." Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009). Although all factual allegations

1

A "person within the third degree of relationship" includes only those
with a familial relationship, not colleagues. See 28 U.S.C. § 455(d)(2) ("the degree of
relationship is calculated according to the civil law system"); Code of Conduct for
U.S. Judges, Canon 3(C)(3)(a) (listing familial relatives who satisfy this definition
according to the civil law). Sibley did not allege that the two judges were relatives.
Appendix - 18

i

in the complaint are assumed to be true, this tenet does not apply to legal
conclusions. Id.
Sibley’s complaint contained many legal conclusions but only a few factual
allegations, all of which related to his separate pro se action, Sibley v. Watches,
W.D.N.Y. No. 19-cv-6517 ("Watches"). He alleged that: Chief Judge Geraci delayed
decision on his motion to proceed in forma pauperis ("IFP") in Watches for 79 days,
Clerk Loewenguth refused to issue a summons in the absence of either a paid filing
fee or a grant of IFP status, and Clerk O'Hagan Wolfe dismissed his petition in this
Court because Sibley did not file a financial affidavit per Federal Rule of Appellate
Procedure 24(a)(1) and Local Rule 24;1. Sibley also alleged that Chief Judge Geraci,
as of the date he filed his complaint in this action in May 2020, had refused to rule
on his IFP motion or motion for a writ of procedendo filed in Watches. However, the
docket attached to Sibley’s complaint contradicts this allegation, as it shows those
motions were dismissed as moot in October 2019.
These factual allegations were the grounds for "indisputably meritless" legal
claims, Neitzke, 490 U.S. at 327, because the only actions complained of were those
taken by a federal judge within the scope of his judicial responsibilities and by two
court clerks as part of the judicial process, and any legal claim arising out of such
actions is barred by absolute judicial immunity. See Bliven v. Hunt, 579 F.3d 204,
209 (2d Cir. 2009) (describing judicial immunity); Rodriguez u. Weprin, 116 F.3d 62,
66-67 (2d Cir. 1997) (describing circumstances under which court clerks enjoy
judicial immunity). We have held that "[a] court's inherent power to control its
docket is part of its function of resolving disputes between parties. This is a function
for which judges and their supporting staff are afforded absolute immunity."
Rodriguez, 116 F.3d at 66 (dismissing due process claim against court clerk as
barred by absolute judicial immunity). All of Sibley's factual allegations concerned
the district court's and this Court’s control of their respective dockets. The district
court thus correctly dismissed his complaint as frivolous.
We have considered all of Sibley's remaining arguments and find them to be
without merit.
Accordingly, we AFFIRM the judgment of the district court.
For The Court
Andrew P. Barnes, Chief Deputy Clerk
Is/ Andrew P. Barnes

Appendix -19

United States Court of Appeals
for the Second Circuit
At a stated term for the United States Court of Appeals, Second Circuit, held at the
Thurgood Marshall Courthouse, 40 Foley Square, City of New York, on the 6th Day
of July, two thousand twenty one.
Montgomery Blair Sibley,
Plaintiff/Appellant,
Order
Docket No.: 20-3608

vs,
Frank Paul Geraci Jr., Mary C.
Loewenguth, and Catherine O'Hagan
Wolfe,
Defendants.

Appellant, Montgomery Blair Sibley, filed a petition for panel rehearing, or,
in the alternative, rehearing en banc. The panel that determined the appeal has
considered the request for panel rehearing, and the active members of the Court
have considered the request for rehearing en banc.
IT IS HEREBY ORDERED, that the petition is denied.
For The Court
Andrew P. Barnes, Chief Deputy Clerk
Is/ Andrew P. Barnes

Appendix - 20

«

